   November 22, 2002




Environment
DoD Alternative Fuel Vehicle
(D-2003-025)




              Department of Defense
          Office of the Inspector General
Quality              Integrity        Accountability
  Additional Copies

  To obtain additional copies of this report, visit the Web site of the Inspector
  General of the Department of Defense at www.dodig.osd.mil/audit/reports or
  contact the Secondary Reports Distribution Unit of the Audit Followup and
  Technical Support Directorate at (703) 604-8937 (DSN 664-8937) or
  fax (703) 604-8932.

  Suggestions for Future Audits

  To suggest ideas for or to request future audits, contact the Audit Followup and
  Technical Support Directorate at (703) 604-8940 (DSN 664-8940) or
  fax (703) 604-8932. Ideas and requests can also be mailed to:

                    OAIG-AUD (ATTN: AFTS Audit Suggestions)
                    Inspector General of the Department of Defense
                          400 Army Navy Drive (Room 801)
                              Arlington, VA 22202-4704

  Defense Hotline

  To report fraud, waste, or abuse, contact the Defense Hotline by calling
  (800) 424-9098; by sending an electronic message to Hotline@dodig.osd.mil; or by
  writing to the Defense Hotline, The Pentagon, Washington, DC 20301-1900. The
  identity of each writer and caller is fully protected.




Acronyms

AFV                   Alternative Fuel Vehicle
GSA                   General Services Administration
          Office of the Inspector General of the Department of Defense
Report No. D-2003-025                                                  November 22, 2002
   (Project No. D2001CK-0132)

                     DoD Alternative Fuel Vehicle Program

                                 Executive Summary

Who Should Read This Report and Why? This report concerns those managers who
are specifically involved with the DoD alternative fuel vehicle program. It discusses
impediments to program compliance and explains current Department actions.

Background. Public Law 102-486, “Energy Policy Act of 1992,” directed Federal
agencies to establish a program to promote the development of domestic replacement
fuels, to include alternative fuel vehicle acquisition, operation, and fueling requirements.
Executive Order No. 13149, “Greening the Government Through Federal Fleet and
Transportation Efficiency,” April 21, 2000, endorsed the alternative fuel vehicle
acquisition requirements established by the Energy Policy Act of 1992 and directed
Federal agencies to exercise leadership in the reduction of petroleum consumption
through improvements in fleet fuel efficiency, and the use of alternative fuel vehicles and
alternative fuels. DoD Components had about 12,500 alternative fuel vehicles in
their fleets.

Results. DoD has made limited progress in implementing an effective alternative fuel
vehicle program. DoD did not meet the 75 percent alternative fuel vehicle acquisition
goals for FYs 2000 and 2001, acquiring 47 and 62 percent, respectively, and is not likely
to meet the goal in FY 2002. DoD had alternative fuels refueling capabilities on or near
only 76 of about 5,300 operating sites nationwide and commercial alternative fuel
facilities are insufficient to support the national alternative fuel vehicle program.
Systems for tracking fuels usage for the DoD alternative fuel vehicle program were also
inadequate. Furthermore, DoD did not include alternative fuels within the total energy
management of petroleum fuels and until FY 2000 did not finance alternative fuels
through the Defense Working Capital Fund. DoD has not met the Energy Policy Act
of 1992 goals of increasing fleet fuel efficiency and reducing petroleum consumption
through the use of alternative fuel vehicles and alternative fuels. Development and
implementation of a comprehensive strategy will improve program compliance. Under
Secretary of Defense for Acquisition, Technology, and Logistics and Under Secretary of
Defense (Comptroller)/Chief Financial Officer support for the inclusion of alternative
fuels within the Defense Working Capital Fund will increase program efficiency. For
details of the audit results, see the Finding section of the report. See Appendix A for
details on the management control program.
Management Comments and Audit Response. Management partially concurred with
the recommendations. The Deputy Under Secretary of Defense (Installations and
Environment) and the Assistant Deputy Under Secretary of Defense (Supply Chain
Integration) in a combined response stated that the capitalization of either alternative
fuels or alternative fuels infrastructure would not increase demand for alternative fuels.
They stated that the Defense Energy Support Center should continue to provide
accounting and reporting on alternative fuels that it has capitalized for, biodiesel and
ethanol (E85), which are consumed by the Services. They also stated that the Defense
Energy Support Center does not manage alternative fuels infrastructure, but does fund
infrastructure maintenance, repair, and environmental compliance projects related to
capitalized products. They agreed to continue the identification and conversion of
existing infrastructure for alternative fuel use. They stated that the Defense Energy
Support Center continues to work with the General Services Administration to capture
off base fuel purchases through commercial credit card systems. The Director, Logistics
Operations, Defense Logistics Agency stated that the Defense Energy Support Center
should be involved in acquisition and supply of alternative fuels, but not the building of
new infrastructure that has no commercial or private sector counterpart. The Under
Secretary of Defense (Comptroller)/Chief Financial Officer stated two alternative fuels
are included under Defense Working Capital Fund financing, and inclusion of additional
fuels requires making a business case for economic feasibility. He stated his office
would review alternative fuels on a regular basis to ensure appropriate financing. See the
Finding section of the report for a discussion of management comments and the
Management Comments section of the report for the complete text.

The comments provided by the Deputy Under Secretary of Defense (Installations and
Environment) and the Under Secretary of Defense (Comptroller)/Chief Financial Officer
were partially responsive. We consider actions taken to date by the Deputy Under
Secretary of Defense (Installations and Environment) on this program, including
publication of the Executive Order 13149 Compliance Strategy in July 2002, to be
positive steps. However, the acquisition of vehicles capable of operating on alternative
fuels and then operating them using petroleum-based fuels fails to maximize the
Government’s investment in those vehicles and slows DoD progress in achieving its
goals for alternative fuels use. The lack of alternative fuels infrastructure, such as readily
available refueling stations, contributes to the problem. We believe program success in
near term is questionable unless those problems are addressed and Component program
and fleet managers are held accountable for meeting the goals of alternative fuels use.
The Under Secretary of Defense for Acquisition, Technology, and Logistics must closely
monitor Component programs and implementation to achieve compliance goals. New
strategies may be needed to achieve program success, including certain legislative
initiatives to resolve infrastructure impediments.




                                              ii
Table of Contents

Executive Summary                                                             i


Background                                                                    1



Objectives                                                                   3


Finding
     Program Implementation                                                  4

Appendixes
     A. Scope and Methodology                                                14
          Management Control Program Review                                  14
          Prior Coverage                                                     15
     B. Glossary                                                             16
     C. DoD Alternative Fuel Vehicle Program Statistics                      18
     D. Report Distribution                                                  19

Management Comments
     Under Secretary of Defense for Acquisition, Technology, and Logistics   21
     Under Secretary of Defense (Comptroller)/Chief Financial Officer        28
     Defense Logistics Agency                                                30
Background
    The United States uses more petroleum each year than the next five largest
    consuming nations combined. The Federal Government is the largest single
    consumer of energy in the United States, with DoD consuming about 80 percent
    of the Federal Government total. Over 40 percent of the energy use is for
    buildings and non-tactical vehicles. In FY 2000, DoD consumed 4.5 billion
    gallons of aviation, marine, and ground fuels, including 200 million gallons of
    gasoline and diesel fuels. In May 2001, the President’s National Energy Policy
    Development Group released the report titled “National Energy Policy,” which
    identified the ability to use energy more wisely through conservation as one of
    three energy challenges to our prosperity and way of life.

    Energy Policy Act of 1992. Public Law 102-486, “Energy Policy Act of 1992”
    (EPAct 1992), October 24, 1992, directed Federal agencies to establish a program
    to promote the development of domestic replacement fuels, and reduce national
    dependence on traditional petroleum-based fuels, demand for imported oil, and
    emissions of air pollutants. EPAct 1992 assigned administrative responsibility to
    establish and manage the Federal program to the Secretary of Energy, and
    required the Federal agencies to submit an annual report to Congress summarizing
    compliance with mandated Alternative Fuel Vehicle (AFV) acquisitions by fleets
    (see Appendix B for AFV program definitions). EPAct 1992 mandated that at
    least 75 percent of total light-duty vehicles acquired by a Federal fleet shall be
    AFVs in FY 1999 and thereafter. Agencies could transfer acquisition credits
    between fleets, and receive up to 50 percent of their total credits through the use
    of biodiesel fuels. EPAct 1992 further instructs Federal agencies to arrange for
    the fueling of AFVs at publicly available fueling facilities to the maximum extent
    practicable, to measure alternative fuel use, and to operate dual-fueled vehicles on
    alternative fuels.

    Executive Order No. 13149. Executive Order No. 13149, “Greening the
    Government Through Federal Fleet and Transportation Efficiency,”
    April 21, 2000, endorsed the requirements established by EPAct 1992 and
    directed Federal agencies to exercise leadership in the reduction of petroleum
    consumption through improvements in fleet fuel efficiency, and the use of AFVs
    and alternative fuels. Executive Order No. 13149 directed each agency to:

           •   develop a performance strategy to meet established petroleum
               reduction goals;

           •   reduce the annual petroleum consumption of its vehicle fleet by at
               least 20 percent by the end of FY 2005, based on 1999 consumption
               levels; and

           •   increase the average Environmental Protection Agency fuel economy
               rating of passenger cars and light trucks acquired by at least 1 mile per
               gallon by the end of FY 2002, and 3 miles per gallon by the end of
               FY 2005.

                                         1
Executive Order No. 13149 also cancelled Executive Order No. 13031, “Federal
Alternative Fueled Vehicle Leadership,” December 13, 1996.

DoD Instruction 4715.4. DoD Instruction 4715.4, “Pollution Prevention,”
June 18, 1996, directed the Deputy Under Secretary of Defense (Installations and
Environment) to:

       •   provide guidance, oversight, advocacy, and representation for
           environmental security pollution prevention programs;

       •   develop and promulgate environmental security pollution prevention
           goals and objectives, and approve measurements for attaining those
           goals and objectives; and
       •   integrate the DoD pollution prevention programs with other
           environmental, safety, and health programs.

In addition, it instructed that the Deputy Under Secretary of Defense (Logistics
and Materiel Readiness), develop policy and guidance to incorporate pollution
prevention into all logistics activities and ensure that all environmental
compliance statutory and Executive Order requirements that apply to DoD
non-tactical vehicles are properly reflected. Furthermore, DoD Instruction 4715.4
directed DoD Components to establish and execute a strategy to reduce emissions
of pollutants by: acquiring AFVs, ensuring sufficient alternative fuels
infrastructure, relying on commercial infrastructure when feasible, and planning
placement of AFVs to maximize the effects on air quality.

Defense Energy Support Center. As a lead center of the Defense Logistics
Agency, the Defense Energy Support Center provides energy support to DoD and
other Government agencies with effective and comprehensive energy support.
The support includes:

       •   worldwide bulk fuel logistics and maintenance;

       •   integrated materiel management of fuels; and
       •   repair and environmental management of nearly all owned fuel
           facilities worldwide for the U.S. Military Forces, U.S. Coast Guard,
           designated Federal agencies, and U.S. allies when approved.

Defense Working Capital Fund. The Defense Working Capital Fund is a
revolving fund divided into business areas managed by DoD Components to
provide goods and services to other activities within DoD and to non-DoD
activities on a reimbursable basis. Customers pay stabilized prices for goods and
services included in the fund, and the price for fuels includes costs for
infrastructure maintenance. In general, fuels are managed by the Defense Energy
Support Center, and are included within the DoD supply management business
area of the Defense Working Capital Fund. The Under Secretary of



                                    2
    Defense (Comptroller), as the DoD Chief Financial Officer, authorizes the
    inclusion and terms of operation of specific activities in the Defense Working
    Capital Fund.

    AFV Working Group. The DoD AFV working group coordinates issues
    regarding the DoD AFV program. The group is chaired by a representative from
    the Office of the Deputy Under Secretary of Defense (Installations and
    Environment), and includes representatives from the Services, the Defense
    Logistics Agency, and the Defense Energy Support Center. The group had
    primary responsibility for drafting the DoD compliance strategy for Executive
    Order No. 13149.

    Alternative Fuels. The EPAct 1992 is a national policy and defines alternative
    fuels to achieve maximum inclusion (see Appendix B). This report discusses only
    alternative fuel vehicles. Therefore, for the purpose of this report, we limited the
    definition of alternative fuels to include only those bulk fuels that are used in
    vehicle fleets subject to EPAct 1992.

    Pentagon Motor Pool. The Pentagon motor pool supports the Office of the
    Secretary of Defense, the Joint Staff, the U.S. Army, and the U.S. Air Force with
    a fleet of 107 vehicles. The Office of the Administrative Assistant to the
    Secretary of the Army is responsible for the operation of the Pentagon motor
    pool.


Objectives
    The overall objective was to determine whether the DoD AFV program, including
    alternative fuels management and infrastructure, fulfilled the requirements
    established by the Energy Policy Act of 1992 and Executive Order No. 13149. In
    addition, we determined whether the Pentagon motor pool reduced petroleum
    consumption through the use of AFVs and alternative fuels. We reviewed the
    management control program as it related to the overall objective. See
    Appendix A for a discussion of the audit scope, methodology, and prior coverage
    related to the audit objectives.




                                         3
           Program Implementation
           DoD has made limited progress in implementing an effective AFV
           program. DoD:

                   •   did not meet the 75 percent AFV acquisition goals for
                       FYs 2000 and 2001, acquiring 47 and 62 percent, respectively,
                       and is not likely to meet the goal in FY 2002;

                   •   had alternative fuels refueling capabilities on or near only 76 of
                       about 5,300 operating sites nationwide and commercial
                       alternative fuel facilities are insufficient to support the national
                       AFV program;
                   •   did not include alternative fuels within the total energy
                       management of petroleum fuels, and until FY 2000, did not
                       finance alternative fuels through the Defense Working Capital
                       Fund; and

                   •   had inadequate systems for tracking fuels usage for the DoD
                       AFV program.

           These conditions occurred because DoD had not developed and
           implemented a comprehensive program compliance strategy. As a result,
           DoD has not met the EPAct 1992 goals for petroleum consumption
           reduction, has not realized benefits from pollution prevention initiatives,
           and compliance and reporting are inconsistent, inaccurate, and inadequate.


Adequacy of AFV Program Components
    The basic components of the DoD AFV program require management attention to
    achieve AFV and fuel reduction goals. DoD had insufficient AFV acquisitions,
    inadequate DoD and commercial alternative fuels infrastructure, inefficient means
    for managing and financing alternative fuels and alternative fuels infrastructure,
    and inadequate alternative fuels tracking systems.

    DoD Vehicle Acquisitions. DoD had insufficient AFV acquisitions to meet the
    75 percent acquisition goals set by EPAct 1992. DoD Components spent over
    $124 million for motor vehicle acquisitions during FY 2000, acquiring
    18,911 light-duty vehicles for their fleets (8,099 subject to EPAct 1992), of which
    3,841 were AFVs. During FY 2001, DoD acquired 14,796 light-duty vehicles
    (7,073 subject to EPAct 1992), of which 4,350 were AFVs. Consequently, DoD
    did not meet the 75 percent AFV acquisition goal for FYs 2000 and 2001,
    acquiring 47 percent and 62 percent, respectively. Prior Service Audit Agency
    reports identified this deficiency and recommended remedial actions. Table C-1
    in Appendix C shows the AFV acquisitions by DoD Component for FYs 2000
    and 2001. DoD projected the acquisition of approximately 5,000 AFVs during
    FY 2002, which probably will not meet the 75 percent AFV acquisition goal.

                                          4
DoD Alternative Fuels Infrastructure. DoD alternative fuels infrastructure was
inadequate to effectively support AFVs on installations. DoD had alternative
fuels refueling capabilities on or near only 76 of about 5,300 sites nationwide.
DoD Components had about 12,500 AFVs in their fleets. Table C-2 in
Appendix C provides details on the DoD AFV fleets. Fleet managers reported
they operated their AFVs on conventional fuel because there were no alternative
fuels refueling stations in the area. The existing alternative fuels infrastructure is
inadequate to effectively support the DoD AFV program, and responsible officials
expect the problem to get worse.

Commercial Alternative Fuels Infrastructure. EPAct 1992 encouraged
agencies to arrange for the use of commercial alternative fueling facilities.
However, the commercial infrastructure is insufficient to support a national AFV
program. According to General Accounting Office Report No. RCED-00-59,
“Energy Policy Act of 1992, Limited Progress in Acquiring Alternative Fuel
Vehicles and Reaching Fuel Goals,” February 2000, the number of alternative
fuel refueling stations in the United States was drastically below the level
necessary to support the EPAct 1992 goals for fuel replacement. The report
included a Department of Energy estimate that 60,000 to 69,300 alternative fuel
stations were necessary to meet the EPAct 1992 goals. However, the Department
of Energy reported only 5,376 available commercial alternative fuel facilities, or
less than 10 percent of the recommended requirement.

Alternative Fuels and Alternative Fuels Infrastructure Management. The
Defense Energy Support Center provides DoD with total energy management of
petroleum products, defined as:

       •   oversight of the entire fuel storage and distribution system from
           supplier to the ultimate consuming military activity; and

       •   central funding for petroleum facility maintenance, repair, and
           environmental management.

The Services continue to manage fuel infrastructure and budget for construction.
However, alternative fuels were not included within the total energy management
of petroleum fuels, and DoD had decentralized management of alternative fuels
and alternative fuels infrastructure.

Alternative Fuels and Alternative Fuels Infrastructure Funding. DoD
budgeting and financing of alternative fuels and alternative fuels infrastructure
were inefficient. The Defense Energy Support Center procures alternative fuels
for Components, but it does not provide total energy management of alternative
fuels and alternative fuels infrastructure. Alternative fuels and alternative fuels
infrastructure are not administered like petroleum fuels because they are not
included in the Defense Working Capital Fund. Inclusion in the Defense
Working Capital Fund requires the approval of the Under Secretary of Defense
(Comptroller)/Chief Financial Officer. The Defense Energy Support Center




                                      5
    officials stated they could successfully budget for alternative fuels and alternative
    fuels infrastructure included in the Defense Working Capital Fund given
    appropriate funding and budget lead-time.

    Alternative Fuels Tracking System. The DoD methods for determining and
    estimating alternative fuel consumption were inadequate to accurately track fuel
    usage. EPAct 1992 states that agencies shall:

           •   measure alternative fuel use in alternative fuel vehicles, and

           •   derive at least 50 percent of the alternative fuels used in vehicles
               acquired under EPAct 1992 from domestic feedstocks.

    In addition, Executive Order No. 13149 states that a majority of fuel used in
    AFVs shall be alternative fuels by the end of FY 2005. The Services and the
    Defense Energy Support Center could effectively monitor alternative fuel
    consumption on DoD sites, but they could not accurately track alternative fuels
    purchased through the General Services Administration (GSA) wet-leases and
    Fleet Voyager credit cards.

            GSA Wet-Leases. DoD Components acquired the majority of their
    alternative fuel vehicles through GSA. Many of these vehicles were leased
    through GSA wet-leases, which included maintenance and refueling costs within
    monthly lease payments. Bolling Air Force Base was unable to track alternative
    fuel consumption because fuel receipts were forwarded to GSA for bill payments.

            GSA Fleet Voyager Credit Card. GSA generally used the Fleet
    Voyager credit card to purchase and track vehicle fleet fuel usage. Each vehicle
    was assigned a unique card, allowing managers to track and review petroleum
    purchases. However, the system could not differentiate between standard
    petroleum fuels and alternative fuels because both were listed under the same
    commercial vendor code. As a result, the Fleet Voyager credit card invoices
    identified diesel fuel while Pentagon motor pool fuel purchase receipts reported
    alternative fuel purchases. GSA is working with the commercial vendors to
    resolve this issue.


AFV Program Strategy
    DoD Compliance Strategy. In response to DoD Instruction 4715.4, the Services
    established AFV programs. The programs have been partially successful, most
    notably the Marine Corps program. The Services’ approaches toward meeting the
    requirements of EPAct 1992 and Executive Order No. 13149 are also disjointed.
    Executive Order No. 13149 states that agencies shall meet the AFV acquisition
    requirements and prepare an agency strategy to meet the petroleum reduction
    goals and increase fuel economy ratings. In September 2000, the Department of
    Energy issued a guidance document, “The Federal Fleet Strategy Development
    Supplement,” directing submission of detailed agency strategies for compliance
    with Executive Order No. 13149 by October 18, 2000. This document also


                                          6
included guidance on data collection, results of agency strategy, and recognition
and awards. In addition, the DoD strategy needs to address:

   •   identification of excess capacity in existing Component fuel infrastructure,

   •   development of an effective means for managing and financing alternative
       fuels and alternative fuels infrastructure, and

   •   implementation of a comprehensive alternative fuels tracking system.

On July 16, 2002, the Assistant Deputy Under Secretary of Defense
(Environment) issued the “Department of Defense Compliance Strategy for
Executive Order 13149: Alternative Fuel / Hybrid Vehicle Requirements.”
Along with goals and reporting, the strategy discusses the conversion of
duplicative infrastructure capacity and impediments to implementing a
comprehensive fuel use tracking system.

Existing Infrastructure for Conversion. At the request of the Services, the
Defense Energy Supply Center conducted fuel management optimization studies
at 8 installations and had an additional 10 studies planned. These studies
examined the total fuel requirement of installations and compared alternatives to
determine the best method to provide cost savings to DoD, meet installation
requirements, and modernize the fuel infrastructure. The studies normally
resulted in the consolidation of fuel facilities thereby identifying facilities
available for conversion to alternative fuels. The conversion of existing facilities
creates alternative fuels infrastructure at a relatively low cost.

Effective Fuels and Fuels Infrastructure Management and Funding. DoD
lacks integrated and centralized management of alternative fuels and alternative
fuels infrastructure and an effective means for financing alternative fuels and
alternative fuels infrastructure. The Defense Energy Support Center administered
standard petroleum fuels but did not oversee alternative fuels and alternative fuels
infrastructure. As a result, the Services had disjointed approaches to the
procurement of alternative fuels and commercial alternative fuels infrastructure
arrangements. Management of alternative fuels by the Defense Energy Support
Center will provide the necessary visibility to perform centralized strategic
planning for alternative fuels and alternative fuels infrastructure. In addition,
alternative fuels and alternative fuels infrastructure were not included in the
Defense Working Capital Fund. As a result, the Services had dissimilar methods
for funding their AFV programs. Services funded alternative fuels infrastructure
upgrades, conversions, and maintenance from facilities maintenance accounts,
which have been under-funded. Treating alternative fuels in a similar manner to
petroleum fuels, including use of the Defense Working Capital Fund, would
provide an effective means for budgeting and financing alternative fuels and
alternative fuels infrastructure maintenance, repair, and environmental
compliance projects.

Comprehensive Tracking System. The Services had decentralized systems for
tracking alternative fuel use, resulting in fragmented data and reporting. Also,
installations were using dissimilar methods to track fuel usage in light-duty


                                      7
vehicles. For example, Marine Corps Base Quantico used an electronic system
that automatically downloaded dispensed fuel amounts, while the Pentagon motor
pool used manual fuel records.

         Pentagon Motor Pool. The Pentagon motor pool had a fleet of
107 vehicles, of which 60 were alternative fuel capable: 50 flex-fuel vehicles and
10 dedicated compressed natural gas vehicles. During FY 2000, 82 percent of
vehicle acquisitions were AFV, satisfying the EPAct 1992 requirement. An
alternative fuel refueling facility was located approximately 1 mile from the
Pentagon motor pool. However, our review of the Pentagon motor pool gasoline
and alternative fuel records from June 2001 through October 2001 determined
that alternative fuel comprised only 16 percent of the fuel consumed in flex-
fueled vehicles. Due to the inability to compare total amounts of fuels procured,
managers were unaware of the problem. As a result, the Pentagon motor pool
was not reducing petroleum consumption through the use of AFVs and alternative
fuels. The following table summarizes Pentagon motor pool fuel usage in flex-
fuel vehicles from June 2001 through October 2001.


 Pentagon Motor Pool Fuel Consumption in Flex-Fuel Vehicles From June
                        Through October 2001
                             (in gallons)
                                                                                   Alternative
   Month         Gasoline Usage      Ethanol Usage        Total Fuel Usage         Fuel Usage
 June                 2031.7                701.8                 2733.5               26%
 July                 2130.6                570.0                 2700.6               21%
 August               2274.0                558.7                 2832.7               20%
 September*           1985.5                155.1                 2140.6                7%
 October              2691.0                184.7                 2875.7                6%
 TOTAL               11112.8               2170.3                13283.1              16%
 *During September, the ethanol refueling facility was inaccessible for part of the month.



A comprehensive alternative fuels tracking system would enable the Pentagon
motor pool to easily determine alternative fuels consumption.

        Army Corrective Action. Army regulations did not require alternative
fuel use in AFVs. However, Army Audit Agency Report AA 01-276,
“Alternative Fuel Vehicle Program,” May 23, 2001, recommended that the Army
revise Army Regulation 58-1 to provide details on requirements for major
command and installation programs. The report projected that the revision will
include a new facility policy for refueling AFVs. In response to the Army Audit
Agency report, the Office of the Assistant Secretary of the Army (Acquisition,
Logistics, and Technology) and the Office of the Deputy Chief of Staff agreed to
complete action by the first quarter of FY 2002. As of March 2002, the action
was incomplete.

                                           8
            Federal Automated Statistical Tool System. The Federal Automated
    Statistical Tool system was developed by the Department of Energy to assist
    Federal agencies with data reporting requirements of EPAct 1992 and Executive
    Order No. 13149. The system was designed to capture alternative fuels
    consumption data for each fleet, but the Department of Energy stated that
    agencies have used estimates to determine fuel use, cost per mile, and actual fuel
    cost. Direct input into this system by GSA for wet-leased fleets and Fleet
    Voyager credit card purchases would allow DoD to accurately capture alternative
    fuel use.

    DoD-Wide Coordination. As of April 2002, the AFV working group had
    completed a draft DoD compliance strategy. The Assistant Deputy Under
    Secretary of Defense (Environment) finalized the compliance strategy on
    July 16, 2002. The strategy included DoD-wide goals for achieving the vehicle
    acquisition, petroleum fuel reduction, and reporting requirements of EPAct 1992
    and Executive Order No. 13149. The Under Secretary of Defense
    (Comptroller)/Chief Financial Officer should fully support implementation of the
    compliance strategy to include the authorization for the capitalization of
    alternative fuels that meet the inclusion criteria of the Defense Working
    Capital Fund.


Environmental Impact, Potential Benefits, and Compliance
  and Reporting Requirements
    Petroleum Consumption Reduction. DoD is not meeting legislative and
    administrative goals of reducing oil imports and petroleum consumption. Due to
    insufficient emphasis and support of the use of alternative fuels in light-duty
    motor vehicles, DoD has not realized improvements in fleet fuel efficiency and
    petroleum consumption through the use of AFVs and alternative fuels. In
    addition, DoD has not exercised leadership in the promotion of markets for
    alternative fuels and the encouragement of new technologies. The failure to
    acquire sufficient AFVs and supporting infrastructure has not enhanced national
    energy self-sufficiency and security.

    Pollution Prevention Benefits. Pollution prevention initiatives exhibit DoD
    commitment to the environment. However, the AFV program has not achieved
    optimum benefits from pollution prevention initiatives. Three of the four
    installations visited were not operating their dual-fueled vehicles or flex-fueled
    vehicles on alternative fuels. For example, at Patuxent River Naval Air Station
    the compressed natural gas refueling facility was inoperative for an extended
    period of time, and the Air Station did not operate its AFVs on alternative fuel
    because the refueling facility was located about 60 miles from the installation.

    Compliance Liabilities. DoD noncompliance with AFV and alternative fuel
    legislation generated potential compliance liabilities. Environmental activist
    groups filed a lawsuit in January 2002 against 18 Federal agencies, including
    DoD, for noncompliance with the provisions of EPAct 1992. The lawsuit
    concluded on July 26, 2002, with the court declaring that Federal agencies failed

                                          9
    to disclose AFV acquisition data to the public. This type of litigation against
    DoD generates negative publicity and has potential monetary impacts.
    Formulation and adoption of a comprehensive AFV compliance strategy and a
    program to increase alternative fuel use will reduce future compliance liabilities.

    Compliance and Reporting. DoD compliance and reporting for EPAct 1992 and
    Executive Order No. 13149 are inconsistent, inaccurate, and inadequate. DoD
    could not accurately determine if it will meet compliance and reporting
    requirements. Installations using GSA wet-leases or Fleet Voyager credit cards
    were forced to estimate alternative fuel use. Managers at the Pentagon motor
    pool were unaware of decreasing alternative fuel use because their manual fuel
    tracking process could not easily compare alternative fuel consumption to
    gasoline fuel consumption. Finally, DoD managers cannot rely on alternative fuel
    consumption figures to demonstrate program success or to estimate future
    requirements.


Management Comments on the Finding and Audit Response
    Management Comments on Program Implementation. The Director,
    Logistics Operations, Defense Logistics Agency stated that the Defense Energy
    Support Center purchases alternative fuels to the extent that alternative fuels are
    part of the Defense Working Capital Fund. He further stated that the Defense
    Logistics Agency and the Defense Energy Support Center had not specifically
    identified the need to invest in alternative fuels infrastructure, and that the
    national infrastructure for AFVs is not a DoD concern. The Director also stated
    that compressed natural gas requires a separate infrastructure in which they have
    no plan to invest.

    Audit Response. We revised the report to clarify that fuels infrastructure funding
    provided by fuels capitalization does not include new construction. However, the
    Director, Logistics Operations should fund maintenance, repair, and
    environmental compliance infrastructure projects for compressed natural gas if
    included in the Defense Working Capital Fund.


Recommendations, Management Comments, and Audit
  Response
           Revised Recommendations. As a result of management comments, we
           revised Recommendation 1.a. to omit the term “infrastructure
           management,” and Recommendation 1.b. to specifically define the
           infrastructure funding associated with capitalized products. We deleted
           draft report Recommendation 1.c. since management actions addressed the
           issue and renumbered draft report Recommendation 1.d. to 1.c. Finally,
           we revised Recommendation 2. to reflect the role of the Under Secretary
           of Defense (Comptroller)/Chief Financial Officer in the AFV program.


                                         10
1. We recommend that the Under Secretary of Defense for
Acquisition, Technology, and Logistics develop and implement a
comprehensive alternative fuel vehicle program compliance strategy
that includes:

   a. Authorization of alternative fuels management by the Defense
Energy Support Center.

   b. Capitalization of alternative fuels within the Defense Working
Capital Fund and funding of maintenance, repair, and environmental
compliance projects for existing infrastructure.

    c. Implementation of a comprehensive uniform DoD tracking
system for alternative fuel use.
Under Secretary of Defense for Acquisition, Technology, and
Logistics Comments. In a combined response, the Deputy Under
Secretary of Defense (Installations and Environment) and the Assistant
Deputy Under Secretary of Defense (Supply Chain Integration) partially
concurred with the recommendations. They stated that the Defense
Energy Support Center should continue to provide accounting and
reporting on alternative fuels that it has capitalized for, biodiesel and
ethanol (E85), which are consumed by the Services. The Defense Energy
Support Center provides natural gas as a heating fuel but not compressed
natural gas for use as an alternative fuel. They stated that the management
of installation infrastructure is a responsibility of the Services, not the
Defense Energy Support Center. However, the Defense Energy Support
Center funds infrastructure maintenance, repair, and environmental
compliance projects related to capitalized products. They also stated that
the capitalization of either fuels or fuels infrastructure would not increase
demand for alternative fuels. Capitalization of fuels infrastructure should
be the last priority, due to the budgetary effects on flying and steaming
hour programs. They agreed to continue the identification and conversion
of existing infrastructure for alternative fuels use, and stated that the
expected completion date for the analysis to identify high demand
installations was November 2002. They stated that a new computer server
system would allow comprehensive tracking through the military filling
system, and that the General Services Administration was working with
the Defense Energy Support Center to address the problem of tracking off
base fuel purchases through commercial credit card systems.

Defense Logistics Agency Comments. Although not required to
comment, the Director, Logistics Operations, Defense Logistics Agency
nonconcurred, stating that the Defense Energy Support Center should be
involved in acquisition and supply of alternative fuels, but not the building
of new infrastructure that has no commercial or private sector counterpart.
Defense Energy Support Center’s first choice in any infrastructure project
is to consider private sector contributions or alternatives to organic
solutions. To the extent that promotion of alternative fuels is a “national”
program, the Department of Energy should sponsor most aspects of


                             11
infrastructure development. The Director, Logistics Operations also stated
that infrastructure capitalization is appropriate only for products that the
Defense Energy Support Center is authorized to capitalize.

Audit Response. We consider the Deputy Under Secretary of Defense
(Installations and Environment) and the Assistant Deputy Under Secretary
of Defense (Supply Chain Integration) comments partially responsive.
We acknowledge progress by the Deputy Under Secretary of Defense
(Installations and Environment) on this program, including publication of
the Executive Order 13149 Compliance Strategy in July 2002. Clearly,
the success of the Department’s internal effort in achieving the goals in
the Comprehensive Strategy has significant implications for Federal
compliance with the national strategy to reduce petroleum dependence.
Acquiring vehicles capable of operating on alternative fuels and then
operating them using petroleum-based fuels fails to maximize the
Government’s investment in those vehicles and slows DoD progress in
achieving its goals for alternative fuels use. The lack of alternative fuels
infrastructure, such as readily available refueling stations, contributes to
the problem. We believe program success in near term is questionable
unless these problems are addressed and Component program and fleet
managers must be held accountable for meeting the goals on alternative
fuels use. The Under Secretary of Defense for Acquisition, Technology,
and Logistics must closely monitor Component programs and
implementation to achieve compliance goals. New strategies may be
needed to achieve program success, including legislative initiatives to
resolve infrastructure impediments. We request that the Under Secretary
of Defense for Acquisition, Technology, and Logistics provide additional
comments on the recommendation. Since the recommendation was not
directed to the Defense Logistics Agency, no additional comments are
required from the Defense Logistics Agency.

2. We recommend that the Under Secretary of Defense
(Comptroller)/Chief Financial Officer fully support the DoD
alternative fuels program and approve the management of alternative
fuels within the limits of the Defense Working Capital Fund.

Under Secretary of Defense (Comptroller)/Chief Financial Officer
Comments. The Under Secretary of Defense (Comptroller)/Chief
Financial Officer partially concurred with the recommendation. Two
alternative fuels are included under Defense Working Capital Fund
financing, and inclusion of additional fuels requires making a business
case for economic feasibility. He stated that his office would review
alternative fuels on a regular basis to ensure that those fuel types with a
viable customer base are financed appropriately. He did not agree that the
financing of alternative fuels through the Defense Working Capital Fund
would result in additional infrastructure due to low sales volume.

Defense Logistics Agency Comments. Although not required to
comment, the Director, Logistics Operations, Defense Logistics Agency
stated that alternative fuels infrastructure does not belong in the Defense


                             12
Working Capital Fund. The alternative fuels program is an experimental
program that belongs under the Department of Energy.

Audit Response. We consider the Under Secretary of Defense
(Comptroller)/Chief Financial Officer comments responsive. We agree
that capitalization will not lead to additional infrastructure and deleted the
funding of infrastructure from the recommendation. Therefore, additional
comments are not required on the revised recommendation.




                              13
Appendix A. Scope and Methodology
    The audit examined implementation of AFV policies and goals by the Services
    and the Defense Logistics Agency. We reviewed the alternative fuel vehicle
    program to determine whether DoD was meeting the requirements of EPAct 1992
    and Executive Order No. 13149. We interviewed Headquarters personnel from
    the Services and the Defense Logistics Agency, and reviewed the FY 2000 and
    FY 2001 acquisition and acquisition process for AFVs and alternative fuels
    infrastructure. In addition, we interviewed responsible personnel and reviewed
    the AFV programs at Naval Air Station Patuxent River, Marine Corps Base
    Quantico, Bolling Air Force Base, and the Pentagon motor pool.

    Our original objective was to review the development and implementation of
    plans to fulfill the AFV acquisition requirement set by EPAct 1992 and Executive
    Order No. 13031. Executive Order No. 13149 replaced Executive Order
    No. 13031 and endorses the AFV acquisition requirements of EPAct 1992. In
    addition, Executive Order No. 13149 directs improvements in the use of AFV,
    alternative fuels, and fleet fuel efficiency. Prior audit coverage of Components’
    acquisition plans determined that DoD would not meet the AFV acquisition rate
    of 75 percent during FY 2001, and recommended remedial actions. Therefore, we
    focused the audit on the DoD AFV program, including alternative fuels
    management and infrastructure.

    We performed this audit from June 2001 through April 2002 in accordance with
    generally accepted government auditing standards.

    Use of Computer-Processed Data. We relied on computer-processed data from
    the Federal Automated Statistical Tool system only to identify vehicle acquisition
    report data. We did not evaluate the controls because the Federal Automated
    Statistical Tool system is administered by the Department of Energy. Not
    evaluating the controls did not affect the results of the audit because we did not
    rely on Federal Automated Statistical Tool data to reach our conclusions.

    General Accounting Office High-Risk Area. The General Accounting Office
    has identified several high-risk areas in DoD. This report provides coverage of
    the DoD Infrastructure Management high-risk area.


Management Control Program Review
    DoD Directive 5010.38, “Management Control (MC) Program,” August 26, 1996,
    and DoD Instruction 5010.40, “Management Control (MC) Program Procedures,”
    August 28, 1996, require DoD organizations to implement a comprehensive
    system of management controls that provides reasonable assurance that programs
    are operating as intended and to evaluate the adequacy of the controls.

    Scope of the Review of the Management Control Program. We reviewed the
    adequacy of management controls over the DoD AFV program. Specifically, we

                                        14
     reviewed management controls over AFV inventory, AFV acquisitions,
     alternative fuel use, and compliance with statutory requirements. We reviewed
     management’s self-evaluation applicable to those controls.

     Adequacy of Management Controls. We identified material management
     control weaknesses for the DoD AFV program as defined by DoD
     Instruction 5010.40. DoD AFV management controls were not adequate to
     ensure compliance with statutory requirements. Our recommendation to the
     Under Secretary of Defense for Acquisition, Technology, and Logistics, if
     implemented, will assist DoD compliance with EPAct 1992 and Executive Order
     No. 13149. Improvements in tracking alternative fuel consumption, vehicle use,
     and efficient use of resources will enable management to make better decisions in
     determining compliance with statutory reductions in fuel consumption. A copy of
     the report will be provided to the senior official responsible for management
     controls in the Office of the Under Secretary of Defense for Acquisition,
     Technology, and Logistics.

     Adequacy of Management’s Self-Evaluation. DoD officials did not identify the
     DoD AFV program as an assessable unit and, therefore, did not identify or report
     the material management control weaknesses identified by the audit.


Prior Coverage

General Accounting Office
     General Accounting Office Report No. RCED-00-59, “Energy Policy Act
     of 1992, Limited Progress in Acquiring Alternative Fuel Vehicles and Reaching
     Fuel Goals,” February 11, 2000

Army Audit Agency
     U.S. Army Audit Agency Report No. AA 01-276, “Alternative Fuel Vehicle
     Program,” May 23, 2001

Air Force Audit Agency
     Air Force Audit Agency Report No. WN099043, “Alternative Fuel Vehicles
     56th Fighter Wing Luke AFB, Arizona,” August 3, 1999

Inspector General, Air Force
     Air Force Inspector General Report No. PN 00-607, “Alternative Fueled Vehicle
     Program,” July 20, 2000



                                        15
Appendix B. Glossary*
   Alternative Fuel Vehicles. Alternative fuel vehicles are dedicated vehicles or a
   dual-fueled vehicle.

   Alternative Fuels. Alternative fuels are methanol, denatured ethanol and other
   alcohols, in mixtures of 85 percent or more (of such other percentage, but not less
   than 70 percent) by volume of methanol, denatured ethanol, and other alcohols
   with gasoline, or other fuels; natural gas; liquefied petroleum gas; hydrogen;
   coal-derived liquid fuels; fuels other than alcohols derived from biological
   materials; and electricity (including electricity from solar energy).

   Covered Person. A covered person is a person that owns, operates, leases, or
   otherwise controls:

        •   a fleet that contains at least 20 motor vehicles that are centrally fueled or
            capable of being centrally fueled, and are used primarily within a
            metropolitan statistical area or a consolidated metropolitan statistical
            area; and
        •   at least 50 motor vehicles within the United States.

   Dedicated Vehicles. Dedicated vehicles are motor vehicles that operate solely on
   alternative fuels.

   Dual-Fueled Vehicles. Dual-fueled vehicles are motor vehicles that are capable
   of operating on alternative fuels and are capable of operating on gasoline or diesel
   fuel. These vehicles have one tank for gasoline and one tank for the alternative
   fuel.

   Fleet. Fleet means a group of 20 or more light-duty motor vehicles used
   primarily in a metropolitan statistical area or consolidated metropolitan statistical
   area that are centrally fueled or capable of being centrally fueled and are owned,
   operated, leased, or otherwise controlled by a governmental entity or other person
   who owns, operates, leases, or otherwise controls 50 or more such vehicles, by
   any person who controls such person, by any person controlled by such person,
   and by any person under common control with such person, except that a fleet
   does not include:

       •    motor vehicles held for lease or rental to the general public;
       •    motor vehicles held for sale by motor vehicle dealers, including
            demonstration motor vehicles;
       •    motor vehicles used for motor vehicle manufacturer product evaluations
            or tests;
       •    law enforcement motor vehicles;
       •    emergency motor vehicles;


   *Obtained definition of terms from the EPAct 1992 except for Dual- and Flex-Fuel Vehicles
   which were obtained from a U.S. Department of Energy web site.

                                            16
   •   motor vehicles acquired and used for military purposes that the Secretary
       of Defense has certified to the Secretary of Energy must be exempt for
       national security reasons;
   •   nonroad vehicles, including farm and construction motor vehicles; and
   •   motor vehicles, which under normal operations are garaged at a personal
       residence at night.

Flex-Fueled Vehicles. Flex-fueled vehicles are motor vehicles that can be fueled
with gasoline or, depending on the vehicle, with either methanol or ethanol.
These vehicles have one tank and can accept any mixture of gasoline and the
alternative fuel.

Light-Duty Vehicle. Light-duty vehicles are light-duty trucks or light-duty
vehicles of less than or equal to 8,500 pounds gross vehicle weight.
Metropolitan Statistical Area. Metropolitan statistical area is an area
established by the Bureau of the Census with a 1980 population of more
than 250,000.




                                   17
Appendix C. DoD Alternative Fuel Vehicle
            Program Statistics
Table C-1 shows the vehicle acquisition data for FY 2001 and FY 2000 for the Services
and the Defense Logistics Agency. The information was obtained from the Office of the
Deputy Under Secretary of Defense (Installations and Environment).

                                   Table C-1. DoD AFV Acquisitions
                                                     Army      Navy    USAF USMC         DLA1       Total
     FY 2001
      Light-Duty Acquisitions                        8,000     2,647   2,410    1,609      130     14,796
      Vehicles Acquired Subject to EPAct 1992        4,000     1,207   1,311      433      122      7,073
      AFV Acquisitions (including credits2)          2,455       880     601      341       73      4,350
     AFV Percent of Acquisitions                      61%       73%     46%      79%      60%        62%
     FY 2000
      Light-Duty Acquisitions                        9,137     4,924   2,855    1,570      425     18,911
      Vehicles Acquired Subject to EPAct 1992        4,000     1,867   1,408      430      394      8,099
      AFV Acquisition (including credits2)           1,834       860     329      578      240      3,841
     AFV Percent of Acquisitions                      46%       46%     23%     134%      61%        47%
     Summary Totals
      Light-Duty Acquisitions                       18,796     7,571   5,265    3,179      555     35,366
      Vehicles Acquired Subject to EPAct 1992        8,000     3,587   2,719      863      516     15,685
      AFV Acquisition (including credits2)           4,289     1,720     916      919      313      8,157
     AFV Percent of Acquisitions                         54%     48%       34% 106%         61%        52%
     1
       Defense Logistics Agency
     2
       Agencies obtain additional credits for acquiring zero emission vehicles, or medium- or heavy-duty AFVs
     and through the use of biodiesel fuels.

Table C-2 shows the total number of light-duty vehicles and the number of installations
with alternative fuel refueling capabilities.

                                 Table C-2. DoD AFV Program Total
                                                      Army      Navy      USAF1      USMC2       DoD Total
 Vehicles on Hand
  Total Light-Duty Vehicles                           35,799     23,268     32,457      7,575      99,099
  Light-Duty Vehicles Subject to EPAct 1992             N/A      17,814     22,056      2,663      42,533
  Total AFV on hand                                   2,4553      2,868      5,572      1,586      12,481
 Installations with AFV Refueling Sites                    9         21         30         13         764
 1
   United States Air Force
 2
   United States Marine Corps
 3
   Includes only FY 2001 procurement
 4
   Service total equals 73, and the Defense Logistics Agency had 3 AFV Refueling Sites.



                                                     18
Appendix D. Report Distribution

Office of the Secretary of Defense
Under Secretary of Defense for Acquisition, Technology, and Logistics
  Deputy Under Secretary of Defense (Installations and Environment)
Under Secretary of Defense (Comptroller)/Chief Financial Officer
  Deputy Chief Financial Officer
  Deputy Comptroller (Program/Budget)

Department of the Army
Auditor General, Department of the Army

Department of the Navy
Naval Inspector General
Auditor General, Department of the Navy

Department of the Air Force
Assistant Secretary of the Air Force (Financial Management and Comptroller)
Auditor General, Department of the Air Force

Other Defense Organizations
Defense Logistics Agency
  Defense Energy Support Center

Non-Defense Federal Organizations and Individuals
Office of Management and Budget
General Services Administration
Department of Energy




                                          19
Congressional Committees and Subcommittees, Chairman and
  Ranking Minority Member
Senate Committee on Appropriations
Senate Subcommittee on Defense, Committee on Appropriations
Senate Committee on Armed Services
Senate Committee on Governmental Affairs
House Committee on Appropriations
House Subcommittee on Defense, Committee on Appropriations
House Committee on Armed Services
House Committee on Government Reform
House Subcommittee on Government Efficiency, Financial Management, and
  Intergovernmental Relations, Committee on Government Reform
House Subcommittee on National Security, Veterans Affairs, and International Relations,
  Committee on Government Reform
House Subcommittee on Technology and Procurement Policy, Committee on
  Government Reform




                                          20
Under Secretary of Defense for Acquisition,
Technology, and Logistics Comments




                       21
Final Report        Final Report
 Reference           Reference




                    Revised




                    Added
                    Page 7




               22
Final Report        Final Report
 Reference           Reference




                    Added


                    Added




                    Added
                    Page 3




                    Revised




               23
     Revised
     Page 11




24
     Deleted




     Renumbered
     as Recom-
     mendation
     1.c.




25
26
27
               Under Secretary of Defense (Comptroller)/Chief
               Financial Officer Comments
Final Report                                                    Final Report
 Reference                                                       Reference




                                                                Revised
                                                                Page 4




                                     28
Final Report        Final Report
 Reference           Reference




                    Revised




                    Revised




                    Revised




                    Revised




               29
Defense Logistics Agency Comments




                     30
Final Report        Final Report
 Reference           Reference




                    Revised
                    Pages 5-6




                    Revised




               31
     Added
     Page 5




32
Final Report        Final Report
 Reference           Reference




                    Revised
                    Page 11




                    Revised
                    Page 11
                    Deleted
                    Renumbered
                    as Recom-
                    mendation
                    1.c.
                    Revised
                    Page 12




               33
Team Members
The Contract Management Directorate, Office of the Assistant Inspector General
for Auditing of the Department of Defense prepared this report. Personnel of the
Office of the Inspector General of the Department of Defense who contributed to
the report are listed below.

Garold E. Stephenson
William C. Gallagher
George P. Marquardt
Linh Truong
John Petrucci
Michael Loos
